The Department of Justice Office of the Inspector General (OIG) released a report examining
the United States Marshals Service’s (USMS) procurement activities. The audit identified
problems which resulted from insufficient training for contracting personnel, ineffective
management and review of procurement activities, and decentralized management of the
procurement process.

The OIG’s audit reviewed the procurement practices in the USMS District and Headquarters
offices from October 2009 through March 2011, during which time the USMS made 455,000
purchases totaling more than $521 million. The OIG found that the USMS did not fully comply
with federal regulations and departmental policies in its award and administration of
procurement actions; its internal controls were not fully effective at ensuring adequate
oversight of procurement actions; and its management of vendor purchases did not ensure
vendor billings were accurate.

Specifically, the audit found that USMS procurement officials did not always maintain
appropriate and necessary documentation in acquisition files to support the purchases
reviewed. Approximately 20 percent of the procurement requests reviewed did not reflect the
required advance approvals, and approximately 17 percent of the requests did not reflect the
required certifications that funds were available to make the purchase. In addition, the
acquisition files for approximately 31 percent of the purchases reviewed did not include
documents confirming that the purchased items had been received.

The audit further found that the procurement files associated with limited competition and sole
source purchases did not always include the required justifications for deviating from the
principles of full and open competition. Also, the OIG found weaknesses that reflected
ineffective oversight of procurement activities, including the purchase of two fully-automatic
firearms without the required approvals.

The OIG made 12 recommendations to the USMS to improve the procurement practices within
the USMS, including re-emphasizing the procurement policies and procedures that must be
followed; developing a tracking system to monitor the training of all procurement staff; and
establishing a process for following up on issues identified during USMS internal reviews. The
USMS agreed with the recommendations.

The report can be found at the following
link: http://www.justice.gov/oig/reports/2012/a1305.pdf.
